     Department of Homeland Security




      FEMA Public Assistance Grant Funds Awarded to 

        City of Pensacola, Florida – Hurricane Dennis 





DA-12-25                                        August 2012

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security
                                            Washington, DC 20528 (www.oig.dhs.gov



                                                 AUG 2 7 1011


MEMORANDUM FOR:                        Major P. (Phil) May
                                       R ional Admi istrator, Region IV
                                             ral Em     ~~~anage            ent Agency

FROM:                                  D.   ic      ~
                                       Assist nt Inspector r eneral
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Public Assistance Grant Funds Awarded to
                                       City of Pensaco/a, Florida - Hurricane Dennis
                                       FEMA Disaster Number 1595-DR-FL
                                       Audit Report Number DA-12-25

We audited Public Assistance funds awarded to the City of Pensacola, Florida (City) (FIPS Code
033-55925-00). Our audit objective was to determine whether the City accounted for and
expended Federal Emergency Management Agency (FEMA) grant funds according to Federal
regulations and FEMA guidelines.

As of August 25, 2011, the City had received a Public Assistance award of $9.9 million from the
Florida Division of Emergency Management (State), a FEMA grantee, for damages resulting
from Hurricane Dennis, which occurred in July 2005. The award provided 100 percent FEMA
funding for debris removal activities, emergency protective measures, repairs to roads and
bridges, and permanent repairs to buildings and other facilities. The award consisted of 10
large projects and 34 small projects. 1

We reviewed costs totaling $8.0 million claimed under three large projects, as shown in table 1.
The audit covered the period July 7,2005, to August 25, 2011, during which the City received
$8.0 million of FEMA funds under the projects reviewed. At the time of our audit, the City had
submitted final claims on all project expenditures to the State.




1   Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
                             OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

                               Table 1: Projects Reviewed 

                       Project     Amount              Amount
                       Number      Awarded             Claimed
                                 3        $5,902,392          $5,902,392
                             54              771,560             771,560
                           1348            1,335,860            1,335,860
                         Total            $ 8,009,812         $8,009,812

We conducted this performance audit between October 2011 and June 2012 pursuant to the
InspectorfGeneralfActfoff1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. We conducted this audit
by applying the statutes, regulations, and FEMA policies and guidelines in effect at the time of
the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed City,
State, and FEMA personnel; reviewed the City’s procurement policies and procedures; reviewed
applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy of the
City’s internal controls applicable to its grant activities because it was not necessary to
accomplish our audit objective. However, we gained an understanding of the City’s method of
accounting for disaster-related costs and its policies and procedures for administering the
activities provided for under the FEMA award.


                                         RESULTS OF AUDIT

We determined that the City accounted for and expended FEMA funds according to Federal
regulations and FEMA guidelines for the three projects included in our review.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with City, FEMA, and Region officials on June 27, 2012.
Because the audit did not identify issues requiring further action from FEMA, we consider this
audit closed. Major contributors to this report were David Kimble, Eastern Region Audit
Director; William (John) Johnson, Audit Manager; Ronald Cummings, Senior Auditor; and
Calbert Flowers, Auditor.



www.oig.dhs.gov                                2                                      DA-12-25
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



Consistent with our responsibility under the InspectorfGeneralfAct, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                             3                                         DA-12-25
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                                                                     Exhibit 

                                  Report Distribution List 

                                 City of Pensacola, Florida 

                              FEMA Disaster Number 1595-DR-FL 


Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code DA-12-072)

Grantee

Executive Director, Florida Division of Emergency Management

State

State Auditor, Florida

Subgrantee

Budget Director, City of Pensacola, Florida




www.oig.dhs.gov                               4                    DA-12-25
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
